      Department of Homeland Security




        Federal Law Enforcement Training Center’s
      Management Letter for FY 2011 DHS Consolidated
                  Financial Statements Audit




OIG-12-55                                     March 2012

                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                            MAR t 4 2012

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report presents the Federal Law Enforcement Training Center's Management Letter
for FY 2011 DHS Consolidated Financial Statements Audit. It contains observations
related to internal controls that were not required to be reported in the financial
statements audit report. The independent public accounting firm KPMG LLP (KPMG)
performed the integrated audit of DHS' FY 2011 financial statements and internal control
over financial reporting and prepared this management letter. KPMG is responsible for
the attached management letter dated February 3,2012 and the conclusions expressed in
it. We do not express opinions on DHS' financial statements or internal control or
provide conclusions on compliance with laws and regulations.

The observations herein have been discussed in draft with management officials. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.



                                              Anne L. Richards
                                              Assistant Inspector General for Audits
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006
February 3, 2012


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer,
U.S. Department of Homeland Security Federal Law Enforcement Training Center
Washington, DC


Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2011 and the related statement of custodial activity for the year
then ended (referred to herein as the “fiscal year (FY) 2011 financial statements”). The objective
of our audit was to express an opinion on the fair presentation of these financial statements. We
were also engaged to examine the Department’s internal control over financial reporting of the
balance sheet as of September 30, 2011, and statement of custodial activity for the year then ended,
based on the criteria established in Office of Management and Budget, Circular No. A-123,
Management’s Responsibility for Internal Control, Appendix A.
Our Independent Auditors’ Report issued on November 11, 2011, describes a limitation on the
scope of our audit that prevented us from performing all procedures necessary to express an
unqualified opinion on DHS’ FY 2011 financial statements and internal control over financial
reporting. In addition, the FY 2011 DHS Secretary’s Assurance Statement states that the
Department was unable to provide assurance that internal control over financial reporting was
operating effectively at September 30, 2011. We have not considered internal control since the
date of our Independent Auditors’ Report.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough
to merit attention by those charged with governance. In accordance with Government Auditing
Standards, our Independent Auditors’ Report, referred to in the paragraph above, included internal
control deficiencies identified during our audit, that individually, or in aggregate, represented a
material weakness or a significant deficiency.
The Federal Law Enforcement Training Center (FLETC) is a component of DHS. We noted
certain matters, related to FLETC that are summarized in the Table of Financial Management
Comments on the following pages, involving internal control and other operational matters that are
less severe than a material weakness or a significant deficiency, and consequently are reported
separately to the Office of Inspector General (OIG) and FLETC management in this letter. These
comments and recommendations, all of which have been discussed with the appropriate members
of management, are intended to improve internal control or result in other operating efficiencies.
The disposition of each internal control deficiency identified during our FY 2011 audit – as either
reported in our Independent Auditors’ Report, or herein – is presented in Appendix A. The

                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
status of internal control deficiencies identified during our FY 2010 audit is presented in Appendix
B.
We would be pleased to discuss these comments and recommendations with you at any time. This
report is intended for the information and use of DHS’ and FLETC’s management, the DHS Office
of Inspector General, the U.S. Office of Management and Budget, the U.S. Congress, and the
Government Accountability Office, and is not intended to be and should not be used by anyone
other than these specified parties.



Very truly yours,
                               Federal Law Enforcement Training Center
                               Table of Financial Management Comments
                                          September 30, 2011

               TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)

Comment
Reference   Subject                                                                      Page

FMC 11-01   Capitalization of Property, Plant, and Equipment                              2




                                               APPENDIX



Appendix    Subject                                                                      Page

    A       Crosswalk – Financial Management Comments to Active Notices of Finding and    3
            Recommendation (NFRs)
    B       Status of Prior Year NFRs                                                     4




                                                      1

                              Federal Law Enforcement Training Center
                                 Financial Management Comments
                                        September 30, 2011


FMC 11-01 – Capitalization of Property, Plant, and Equipment (NFR No. FLETC 11-01)

       During testwork over property, plant, and equipment (PP&E) as of June 30, 2011 and September
       30, 2011, KPMG noted the following issues:
       •	 One instance where costs related to a construction in progress (CIP) project had not been
           capitalized from the inception of the project which resulted in the project being capitalized
           untimely in fiscal year (FY) 2011. This resulted in CIP and cumulative results of operations
           being understated in FY 2010.
       •	 One instance where a flag pavilion addition was not recorded as a capitalized asset until six
           months after the completion of the project. Once capitalized, the Federal Law Enforcement
           Training Center (FLETC) applied the correct in-service date so depreciation was correctly
           applied.
       •	 One instance where software under development was put into use in September 2010 though
           the software was not reclassified from software under development to internal use software
           (IUS) until September 2011, one year later. This resulted in United States Standard General
           Ledger account (USSGL) 1830, Internal Use Software, being understated in FY 2010,
           USSGL 1832, Software In Development, being overstated in FY 2010, and USSGL 1839,
           Accumulated Depreciation- Software, being understated in FY 2010. Additionally, when the
           software was reclassified, the in-service date was recorded as February 1, 2011, and it should
           have been September 2010. This resulted in depreciation expense and accumulated
           depreciation being understated in FY 2011.
       •	 When the accounts payable accrual was calculated, the portion related to PP&E was not
           reclassified from USSGL 6100, Expenses, to USSGL 1720, Construction in Progress. This
           resulted in an overstatement of Expenses and an understatement of CIP as of September 30,
           2011.

       Recommendations:
       We recommend that the FLETC Finance Division (FIN):
       •	 Implement more aggressive follow-up for submission of capitalization reports from
          program/project managers upon project completion, contract closeout or building occupancy,
          whichever comes first. If a capitalization report is not received within ten days, FIN prepares
          an interim preliminary capitalization report to effect the reclassification of CIP into the
          general asset account.
       •	 Emphasize to Contracting Officer’s Technical Representatives, end-users and program staff
          the importance of timely input of receiving reports and submission of invoices for payment in
          financial reporting accuracy and operating efficiencies related to bulk purchases.
       •	 Continue to perform manual reviews monthly as an additional check on bulk purchase field
          operational procedures and identify necessary updates to FLETC standard operating
          procedures related to bulk purchase policies and capitalization threshold.
       •	 Collaborate with the Software In Development team, the Student Administration and
          Scheduling System Program Managers, to establish a communication process whereby FIN
          will be alerted as software modules/releases are put into production.
       •	 Strengthen monitoring and review of accrued expenses related to construction projects for
          reclassification into CIP at fiscal yearend by adding the tasks as a key item in the FIN Year­
          end Closeout Checklist.




                                                   2

                                                                                                                  Appendix A
                                  Federal Law Enforcement Training Center
                         Crosswalk - Financial Management Comments to Active NFRs
                                             September 30, 2011


                                                                                                   Disposition1
                                                                                                  IAR                 FMC
    NFR No.                                  Description                               MW         SD        NC        No.
      11-01       Capitalization of Property Plant & Equipment                                                        11-01


1
 Disposition Legend:
IAR	       Independent Auditors’ Report dated November 11, 2011
FMC	       Financial Management Comment
MW	        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC	        Contributed to Non-Compliance with laws,regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR	       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Fund Balance with Treasury
H         Grants Management
I         Custodial Revenue and Drawback
J         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
K         Federal Financial Management Improvement Act of 1996 (FFMIA)
L         Single Audit Act Amendments of 1996
M         Chief Financial Officers Act of 1990 (CFO Act)
N         Antideficiency Act, as amended (ADA)
O         Government Performance and Results Act of 1993 (GPRA)




                                                              3

                                                                                                                   Appendix B
                                       Federal Law Enforcement Training Center
                                               Status of Prior Year NFRs
                                                  September 30, 2011


                                                                                                         Disposition1
                                                                                                                  Repeat
    NFR No.                                    Description                                       Closed2
                                                                                                             (2011 NFR No.)
     10-01    Management Review of Purchase Card Statements                                         X
     10-02    FFMIA Compliance                                                                      X
     10-03    Accounts Payable Estimation Methodology & True-Up Analysis                            X


1
 KPMG was engaged to perform an audit over the DHS balance sheet and statement of custodial activity as of and for the year
ended September 30, 2011, and was not engaged to perform an audit over the statement of net cost, statement of changes in net
position, and statement of budgetary resources for the year ended September 30, 2011. In addition, we were engaged to follow-
up on the status of all active NFRs that supported significant deficiencies reported in our FY 2010 Independent Auditors’ Report.


2
  The scope of our audit was limited to follow-up on NFRs that supported a material weakness or significant deficiency as
reported in our Independent Auditors’ Report. All other NFRs, e.g., that described insignificant findings, and therefore presented
to DHS management as observations for consideration, were considered closed.




                                                                4

Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      Federal Law Enforcement Training Center

                      Director
                      Chief Financial Officer
                      Chief Information Officer
                      Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
